August 2009
Report No. AUD-09-021


Material Loss Review of MagnetBank,
Salt Lake City, Utah




            AUDIT REPORT
                                                    Report No. AUD-09-021                                                                August 2009

                                                    Material Loss Review of MagnetBank,
                                                    Salt Lake City, Utah
   Federal Deposit Insurance Corporation
                                                    Audit Results
Why We Did The Audit
                                                    Causes of Failure and Material Loss - MagnetBank failed due to management’s aggressive
On January 30, 2009, the Utah Department            pursuit of CRE/ADC lending concentrated in high-growth markets, coupled with weak risk
of Financial Institutions (UDFI) closed             management controls, that left the bank unprepared to deal with declining markets.
MagnetBank, Salt Lake City, Utah, and
                                                    MagnetBank’s business plan was to expand into a $530 million bank within its first 3 years of
named the FDIC as receiver. On
                                                    operations, funded by brokered deposits. To achieve this goal, MagnetBank pursued CRE/ADC
February 24, 2009, the FDIC notified the
Office of Inspector General (OIG) that              lending through regulator-approved loan production offices in multiple states and loan
MagnetBank’s total assets at closing were           participations purchased from other banks. As a result of these lending efforts, the bank had
$286.4 million and the estimated loss to the        reached $459 million in assets by the end of its first 15 months of operations, committing the bank
Deposit Insurance Fund (DIF) was                    to a highly concentrated CRE/ADC loan portfolio that was negatively affected when the economy
$119.4 million. The estimated loss to the           declined.
DIF had increased to $129.3 million as of
August 7, 2009. As required by                      The bank’s operations were characterized by wide-spread weaknesses in loan underwriting and
section 38(k) of the Federal Deposit                approvals; poor credit administration; high production-focused compensation for loan officers;
Insurance (FDI) Act, the OIG conducted a            inadequate due diligence for participations purchased; untimely recognition of problem assets;
material loss review of the failure of              and, as the economy turned, high levels of adversely classified assets and losses without an
MagnetBank.                                         adequate allowance for loan and lease losses. Due to the losses in the loan portfolio, the bank’s
                                                    capital eroded and liquidity became strained, ultimately leading to the failure of the bank, 40
The audit objectives were to (1) determine          months after opening.
the causes of the financial institution’s
failure and resulting material loss to the          Assessment of FDIC Supervision - Based on our review, we concluded that the FDIC provided
DIF and (2) evaluate the FDIC’s                     ongoing supervision of MagnetBank; identified key concerns for attention by bank management,
supervision of the institution, including           including the problems that led to the bank’s failure; and, together with the UDFI, pursued
implementation of the Prompt Corrective             enforcement action as the bank’s financial condition deteriorated in 2008 prior to the bank’s
Action (PCA) provisions of section 38.
                                                    failure. The FDIC’s off-site monitoring identified the need for additional oversight, resulting in a
                                                    visitation and subsequent acceleration of the 2008 examination. The April 2008 examination
Background                                          included a thorough analysis of asset quality and other problems at the bank, and the FDIC
                                                    followed up on two resulting Cease and Desist Orders in December 2008.
MagnetBank was an industrial bank insured
on September 29, 2005. On July 24, 2007,            However, the FDIC could have provided additional supervisory attention and taken additional
with UDFI and FDIC approval, the bank               action regarding MagnetBank. In particular, the 2007 examination could have more fully
changed its charter to a state nonmember            considered the risks associated with the rapid growth of a de novo institution concentrated in
commercial bank. As a de novo bank,                 CRE/ADC lending that was funded almost exclusively with wholesale funding sources.
MagnetBank was subject to additional
                                                    Examiners emphasized heavily the past experience of MagnetBank’s management team rather
supervisory oversight and regulatory
                                                    than the growing risk to the institution from its aggressive business strategy and weak risk
controls, including the development and
maintenance of a current business plan and
                                                    management controls. Between the August 2007 and April 2008 examinations, MagnetBank went
increased examination frequency. With no            from well rated to the worst composite rating assigned, and numerous critical deficiencies were
branch offices and four loan production             identified in risk management controls by the latter examination. The FDIC should have ensured
offices, MagnetBank engaged principally in          that examiners followed the supervision strategy for the 2007 examination, developed in
commercial real estate lending activities           conjunction with the FDIC’s approval of the bank’s revised business plan, that specified a 60-
within Georgia, Utah, North Carolina,               percent loan sample, which might have identified additional asset quality and risk management
California, Idaho, Florida, Arizona and,            control problems. In addition, supervisory actions could have been timelier, resulting in earlier
Nevada, which experienced significant               action by the bank to address its problems. With respect to PCA, the FDIC notified the bank of its
economic downturns starting in 2007 and             PCA status in a timely manner.
early 2008. MagnetBank had no holding
company, subsidiaries, or affiliates.               The FDIC OIG plans to issue a series of summary reports on our observations on the major
                                                    causes, trends, and common characteristics of financial institution failures resulting in a material
MagnetBank’s assets consisted principally           loss to the DIF. Recommendations in the summary reports will address the FDIC’s supervision of
of commercial real estate (CRE) loans,              the institutions, including implementation of the PCA provisions of section 38.
including a significant concentration in
residential acquisition, development and
construction (ADC) loans. FDIC guidance             Management Response
issued to financial institutions describes a
risk management framework to effectively            On August 20, 2009 the Director, Division of Supervision and Consumer Protection (DSC),
identify, measure, monitor, and control             provided a written response to the draft report. In its response, DSC stated that MagnetBank
CRE concentration risk. That framework              failed due to management’s aggressive pursuit of ADC loans concentrated in high-growth markets
includes effective oversight by bank                funded with higher-cost wholesale deposits. DSC also stated that this profile, coupled with weak
management, including the Board of                  management controls, left MagnetBank unprepared to deal with declining markets. In addition,
Directors (BOD) and senior executives, and          the Director stated that DSC (1) had implemented a supervisory strategy of planned annual
sound loan underwriting, administration,            examinations, interim 6-month visitations, and quarterly off-site monitoring in 2007 and
and portfolio management practices.                 (2) agreed that a higher-loan sample at that time may have uncovered additional problems that
                                                    could have led to earlier supervisory action.
To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                  Page


BACKGROUND                                                                  2

CAUSES OF FAILURE AND MATERIAL LOSS                                         5
  Aggressive Growth Strategy                                                5
     Concentration in CRE/ADC Loans                                         6
     Use of Brokered Deposits                                               8

  Risk Management Controls                                                  9
      Credit Underwriting and Administration                                9
         Underwriting Deficiencies                                          9
         Loan Policies and Practices                                       10
         Credit and Documentation Review                                   10
         Participations Purchased                                          11
         Role of the Bank’s Chairman and CEO                               12
     Compliance with Regulatory Orders                                     13
  Effects of Growth Strategy Coupled with Weak Risk Management Controls    14
     Suspicious Activity                                                   15
     Summary                                                               15

ASSESSMENT OF SUPERVISION                                                  15
  Historical Snapshot of Supervision                                       16
  OIG Assessment of FDIC Supervision                                       19
      Supervision Strategy for 2007                                        20
      Cease and Desist Orders                                              20
   Actions Taken Subsequent to MagnetBank’s Failure                        20

IMPLEMENTATION OF PCA                                                      21

CORPORATION COMMENTS AND OIG EVALUATION                                    21

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                    22
  2. EXAMPLES OF PARTICIPATIONS PURCHASED BY MAGNETBANK                    24
  3. EXAMPLES OF MAGNETBANK EXAMINER COMMENTS AND                          25
      RECOMMENDATIONS RELATED TO ASSET QUALITY
  4. GLOSSARY OF TERMS                                                     26
  5. CORPORATION COMMENTS                                                  27
  6. ACRONYMS IN THE REPORT                                                28
TABLES
  1. Financial Condition of MagnetBank                                      4
  2. MagnetBank’s CRE/ADC Concentrations Compared to Peer                   6
  3. MagnetBank’s Loan Classifications and ALLL                            15
Contents                                                             Page


FIGURES
 1. MagnetBank’s Asset Growth in the First 15 Months of Operations     3
 2. MagnetBank’s Asset Growth Compared to Original Business Plan       5
 3. Total Loans vs. Classified Loans                                   8
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     August 24, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of MagnetBank, Salt Lake City, Utah
                                          (Report No. AUD-09-021)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of
MagnetBank, Salt Lake City, Utah. On January 30, 2009, the Utah Department of
Financial Institutions (UDFI) closed the institution and named the FDIC as receiver. On
February 24, 2009, the FDIC notified the OIG that MagnetBank’s total assets at closing
were $286.4 million and the estimated material loss to the Deposit Insurance Fund (DIF)
was $119.4 million. As of July 17, 2009, the estimated loss to the DIF from
MagnetBank’s failure had increased to $129.3 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology.



1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    Appendix 4 contains a glossary of terms. A list of acronyms used in this report can be
    found in Appendix 6.

    This report presents the FDIC OIG’s analysis of MagnetBank’s failure and the FDIC’s
    efforts to ensure MagnetBank’s management operated the bank in a safe and sound
    manner. The FDIC OIG plans to issue a series of summary reports on our observations
    on the major causes, trends, and common characteristics of financial institution failures
    resulting in a material loss to the DIF. Recommendations in the summary reports will
    address the FDIC’s supervision of the institutions, including implementation of the PCA
    provisions of section 38.


BACKGROUND

    MagnetBank was a Utah-chartered industrial bank insured by the FDIC effective
    September 29, 20053 and headquartered in Salt Lake City, Utah. As part of its original
    regulator-approved business plan, MagnetBank’s board of directors (BOD) indicated that
    funding would be primarily through less-overhead-intensive nontraditional sources such
    as brokered deposits4 and other wholesale sources. The bank did not plan on having
    branches or offering traditional banking products such as savings, checking, or other
    demand-deposit accounts. Specifically, the bank’s business model corresponded with
    industrial bank restrictions in the Bank Holding Company Act in that the bank could “not
    accept demand deposits that the depositor may withdraw by check or similar means for
    payment to third parties.”5  In its 3-1/2-year history, MagnetBank:

        •   had no branches;

        •   had four loan production offices (LPO) located in Salt Lake City, Utah; Atlanta,
            Georgia; Boise, Idaho; and Raleigh, North Carolina;

        •   had assets in many geographical areas of the United States, including Georgia,
            Utah, North Carolina, California, Idaho, Florida, Arizona, and Nevada;

        •   did not have a holding company, subsidiaries, or affiliates; and

        •   specialized in commercial lending activities, including CRE/ADC loans, by
            offering business loans of $2 million to $10 million, funded primarily through
            brokered deposits.

    3
      In making its determination to approve MagnetBank’s application for insurance, the FDIC prepared a
    Report of Investigation, as outlined in the FDIC Statement of Policy on Applications for Deposit Insurance
    and Part 303 Subpart B – Deposit Insurance, of the FDIC Rules and Regulations.
    4
      Brokered deposits are non-core funding sources that can be volatile because of the ease of moving large
    sums from the bank if financial conditions worsen. Other non-core funding sources include federal funds
    purchased, Federal Home Loan Bank (FHLB) advances, and certificates of deposit (CD) of more than
    $100,000.
    5
      12 United States Code 1841(c).


                                                        2
From its inception, MagnetBank grew at an extremely rapid rate, reaching $380 million
in assets by the end of the first year of operations in September 2006, which far exceeded
its original business plan projection of $249 million by the end of its first year. The bank
focused on commercial real estate (CRE), including acquisition, development and
construction (ADC) lending resulting in significant concentrations by loan type and
geographic area. The bank’s assets increased by another $79 million during the next
quarter to total $459 million by the end of December 2006, 15 months after starting
operations (see Figure 1, which follows).

Figure 1: MagnetBank’s Asset Growth in the First 15 Months of Operations



                 $500

                 $400
   In Millions




                 $300
                                                                     Quarterly Asset Total
                 $200

                 $100

                  $0
                    Dec-05   Mar-06   Jun-06   Sep-06       Dec-06
                                      Months

Source: Uniform Bank Performance Report (UBPR) data for MagnetBank.

At the August 2006 MagnetBank BOD meeting, which included a discussion of the
August 2006 examination results, the BOD discussed raising additional capital to
continue to grow the bank and reduce the bank’s concentrations in CRE/ADC lending.
On October 11, 2006, the bank filed a notice requesting FDIC permission to modify its
business plan to accomplish these goals. The UDFI approved the bank’s proposed
amendments to the business plan on December 19, 2006. However, only the FDIC’s
Board of Directors could act on this filing because the delegation of authority to the
FDIC’s DSC for approval of all applications and notices with respect to industrial banks
and industrial loan companies was suspended pursuant to July 28, 2006 and January 31,
2007 FDIC Board Resolutions. On June 18, 2007, MagnetBank filed a Change in
General Character of Business application with the FDIC to convert from an industrial
bank charter to a Utah commercial bank charter. According to the FDIC Board Case,
dated July 18, 2007, MagnetBank’s business plan modification request, which included
the injection of an additional $50 million in capital, provided DSC with an opportunity to
clarify FDIC expectations regarding the bank’s risk profile, including the importance of
maintaining a diversified loan portfolio and adherence to its business plan. As a
condition of approval, MagnetBank was required to enter into a Capital and Liquidity
Agreement (CLA) with the FDIC. The CLA required MagnetBank to maintain capital
ratios at 12 percent, maintain liquidity ratios at 10 percent of total assets, and abide by


                                                        3
revised financial projections. The bank’s revised business plan and charter change
approvals were granted by the FDIC’s Board of Directors on July 24, 2007, and the CLA
was signed on July 25, 2007.

Details on MagnetBank’s financial condition, as of September 2008, and for the
3 preceding calendar years follow in Table 1.
Table 1: Financial Condition of MagnetBank
                                             30-Sept.-08   31-Dec.-07   31-Dec.-06     31-Dec.-05
Total Assets ($000s)                          $300,674      $458,361     $458,699       $71,136
Total Deposits ($000)                         $282,578      $409,982     $406,326       $25,296
Total Brokered Deposits ($000)                $282,154      $401,476     $404,841       $24,796
Brokered Deposits as a % of Total              99.8%         98.0%        99.6%          98.0%
Deposits
Brokered Deposits as a % of Average Assets       91%          88%           80%            21%
Total Loans ($000s)                           $252,762     $416,189      $360,965        $36,034
Net Loan and Lease Growth Rate                 -41.29%      13.25%       906.61%           N/A
Net Income (Loss) ($000s)                     ($24,251)    ($7,269)       $1,129         ($2,993)
Return on Assets (%)                           (8.16%)      (1.48%)        .44%         (22.46%)
Tier 1 Leverage Capital Ratio                   4.84%        8.35%        11.36%         77.23%
Loan Mix (% of Loans):
All Loans Secured by Real Estate               88.14%        86.12%       89.82%         89.75%
 Construction and Development                  80.16%        78.29%       80.88%         75.53%
 CRE - Nonfarm/nonresidential                   7.92%         7.67%        8.30%         14.23%
 Multifamily Residential Real Estate             .07%          .15%         .63%          .00%
Commercial and Industrial Loans                 8.46%         6.86%        5.53%         10.25%
Lease Financing Receivables                     3.39%         7.02%        4.65%          .00%
Examination Date/Conducted By:a              12-08-2008    04-07-2008   08-06-2007     08-07-2006
                                             UDFI and      FDIC and     UDFI and       FDIC and
                                                FDIC          UDFI         FDIC           UDFI
Component/Composite Ratingsb                  555555/5      554544/5     222222/2       222323/2
Adverse Classifications Ratio                 555.52%       218.83%       28.72%       No Adverse
                                                                                      Classifications
Source: UBPR and Reports of Examination (ROE) for MagnetBank.
a
  All examinations were conducted jointly by the FDIC and UDFI. The lead examination agency is listed
first in the table.
b
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

As a de novo bank for its first 3 years in operation, MagnetBank was subjected to
additional supervisory oversight and regulatory controls, such as adherence to conditions
set forth in granting deposit insurance, including operating within the parameters of the
business plan, and increased examination frequency. The FDIC’s DSC has recognized
that de novo institutions can pose additional risk to the DIF, including where there is
dependence on wholesale funding and CRE/ADC concentrations.




                                                      4
CAUSES OF FAILURE AND MATERIAL LOSS

Aggressive Growth Strategy

      MagnetBank failed due to management’s aggressive pursuit of CRE/ADC lending
      concentrated in high-growth markets, coupled with weak risk management controls that
      left the bank unprepared to deal with declining markets. MagnetBank’s business plan
      was to expand into a $530 million bank within its first 3 years of operations, funded by
      brokered deposits. To achieve this goal, MagnetBank pursued CRE/ADC lending
      through regulator-approved LPOs in multiple states and loan participations purchased
      from other banks. As a result of these lending efforts, the bank had reached $459 million
      in assets by the end of its first 15 months of operations, committing the bank to a highly
      concentrated CRE/ADC loan portfolio that was negatively affected when the economy
      declined.

      The bank’s operations were characterized by wide-spread weaknesses in loan
      underwriting and approvals; poor credit administration; high production-focused
      compensation for loan officers; inadequate due diligence for participations purchased;
      untimely recognition of problem assets; and as the economy turned, high levels of
      adversely classified assets and losses without an adequate allowance for loan and lease
      losses (ALLL). Due to the losses in the loan portfolio, the bank’s capital eroded and
      liquidity became strained, ultimately leading to the failure of the bank, 40 months after
      opening, and an initial estimated loss to the DIF of $119.4 million.

      As indicated in Figure 2, which follows, MagnetBank’s initial efforts to expand the bank
      were successful, well beyond those described in the original business plan, until asset
      growth declined due to new loan origination restrictions imposed by bank management
      and loan losses.

      Figure 2: MagnetBank’s Asset Growth Compared to Original Business Plan



                       $600

                       $500

                       $400
         In Millions




                                                                              Business Plan
                       $300                                                   (Projections)

                       $200
                                                                              UBPR Data
                       $100

                         $0
                              2006          2007             2008
                                            Year

      Source: The bank’s Business Plan and UBPR data for MagnetBank.


                                                      5
To pursue its business strategy, MagnetBank opened LPOs in out-of-territory markets
that the bank considered high-loan-growth-potential markets. MagnetBank hired loan
officers from local communities who knew their respective markets. However, as noted
in the April 2008 ROE, the bank’s compensation agreements with the loan officers
focused on loan production/development, rather than asset quality. Another aspect of the
bank’s business strategy included participating in loans from or to correspondent banks.
As of June 30, 2007, the bank had participations purchased totaling about $99 million, or
about 23 percent of the total loan and lease portfolio, while participations sold
represented $139 million. By December 2008, participations purchased totaled
$78 million, or about 31 percent of the bank’s loan and lease portfolio because total loans
and leases had declined, while participations sold represented $41 million. Among the
correspondent banks with which MagnetBank did business were several banks that have
since been closed by the state chartering agency and put into FDIC receivership. As
noted in the material loss review reports issued on those banks,6 each institution had poor
loan underwriting practices, which could, and in some cases did, ultimately lead to losses
for the loan purchaser as adverse market conditions arose or other factors caused loan
quality to suffer.

Concentration in CRE/ADC Loans. MagnetBank’s loan production efforts led the
bank to high concentrations in CRE/ADC lending, which bank management found to be
an easy market for asset growth. Concentrations in CRE/ADC lending consistently were
at the 98th or 99th percentile of the bank’s peer group. As shown in Table 2, below,
MagnetBank’s concentration in CRE/ADC loans as a percentage of Tier 1 Capital was
noted in each examination report.

Table 2: MagnetBank’s CRE/ADC Concentrations Compared to Peer
                                 Percent of
        ROE Date               Tier 1 Capital        Percentile Ranking
      August 7, 2006               350%                       98
      August 6, 2007               742%                       98
      March 3, 2008*               698%                       99
       April 7, 2008               863%                       99
     December 8, 2008             1,451%                      99
Source: MagnetBank ROEs and UBPR data.
        * Visitation.

The FDIC issued Financial Institution Letter 104 -2006 (FIL-104-2006) on December 12,
2006 titled, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices. The regulatory agencies were concerned that rising CRE concentrations could
expose institutions to unanticipated earnings and capital volatility in the event of adverse
changes in the general CRE market. The guidance acknowledges that a concentration in
CRE loans, coupled with weak loan underwriting and depressed CRE markets, may

6
 The banks were Integrity Bank, Alpharetta, Georgia (FDIC OIG Report AUD-09-006, dated March 17,
2009) and Alpha Bank and Trust, Alpharetta, Georgia (FDIC OIG Report AUD-09-010, dated May 1,
2009). Also, a review is in-process for FirstCity Bank, Stockbridge, Georgia (FDIC OIG Assignment
No. 2009-033).


                                                 6
contribute to significant loan losses.7 The guidance reminds banks that their “… risk
management practices and capital levels should be commensurate with the level and
nature of their CRE concentration risk.” In addition, the guidance provides the following
supervisory criteria for identifying institutions with potentially significant CRE loan
concentrations that may warrant greater supervisory scrutiny:

    •   total reported loans for construction, land development, and other land represent
        100 percent or more of the institution’s total capital; or

    •   total commercial real estate loans that represent 300 percent or more of the
        institution’s total capital, and the outstanding balance of the institution’s CRE
        loan portfolio has increased by 50 percent or more during the prior 36 months.

Both the bank and the FDIC acknowledged that MagnetBank met the supervisory criteria.
The August 2007 examination concluded that management understood the concentration
risk and had appropriate monitoring and controls that mitigated some of the risk. The
examination report concluded that the bank had adequate BOD and management
oversight, portfolio management and stress testing, management information reporting,
underwriting standards, and credit review in accordance with the December 2006
Interagency Guidance. However, examiners made five recommendations for
management to enhance its management of concentration risk as discussed later in the
Assessment of Supervision section of this report.

Rather than follow its regulator-approved business plan for a diversified loan portfolio
that included acquisition and development, CRE, consumer real estate, and commercial
and industrial loans, the bank concentrated its lending in CRE/ADC loans. As of
May 31, 2007, real-estate-related loans comprised about 85 percent of MagnetBank’s
loan portfolio. Most of these loans were originated in the four states (Utah, Georgia,
North Carolina, and Idaho) in which MagnetBank had the LPOs.

Although the bank’s portfolio had geographic diversity as of April 2008, which could
help alleviate some concentration risk, the bank’s concentrations were largely in rapid-
growth markets. When the economy suddenly declined in those markets, particularly in
the 4th quarter of 2007 and 1st quarter of 2008, the bank’s loan portfolio experienced
significant increases in adverse classifications as identified in the April 2008 examination
(see Figure 3, which follows).




7
 Additionally, the FDIC issued FIL-22-2008 on March 17, 2008 entitled, Managing Commercial Real
Estate Concentrations In a Challenging Environment, which re-emphasized the importance of strong
capital, ALLL, and loan risk management practices for state nonmember institutions with significant CRE
and construction and development loan concentrations.


                                                   7
                                 Fig. 3 - Total Loans vs Classified Loans


                            40.00%

                            35.00%
     Percent of Portfolio



                            30.00%

                            25.00%

                            20.00%
                            15.00%
                            10.00%

                            5.00%

                            0.00%
                                     AL   AZ   CA   CO       FL   GA     ID   NC     NV      UT
                                                             State

                                               Total Loans        Classif ications

Source: April 2008 ROE.

Use of Brokered Deposits. In keeping with its original business plan to use wholesale
funding sources such as brokered deposits, MagnetBank established relationships with
several brokerage desks to obtain funding. The bank’s brokered deposits averaged about
99 percent of all deposits during the life of the bank. Inherent in the use of brokered
deposits is the need for a bank to maintain sound financial conditions, including adequate
capital. Absent sound financial conditions, the volatility and higher cost of brokered
deposit funding could put an institution at risk.

As of the April 2008 ROE, MagnetBank had $365 million in brokered CDs and
$28 million in brokered money market accounts representing almost 100 percent of total
deposits. MagnetBank had lengthy maturities on its brokered CDs; however, the renewal
or roll-over of the CDs as they matured and the receipt of new accounts was restricted by
DSC under PCA provisions because the bank had fallen into the “adequately capitalized”
category with the filing of the March 2008 Report of Condition and Income (Call
Report). As a result, the FDIC imposed a restriction on the acceptance or renewal of
brokered deposits. The bank submitted a brokered deposit waiver request to the FDIC on
April 9, 2008, in order to continue obtaining and renewing brokered deposits.8 On
June 5, 2008, the bank president withdrew the waiver application, stating that the bank
had sufficient liquidity to meet its obligations through June 2008. Examiners who had
conducted both the March 2008 visitation and April 2008 examination agreed that the
bank had met the liquidity requirements (liquidity equaling 10 percent of total assets) in
the CLA. The liquidity requirement was achieved primarily through borrowing lines
with other banks, which required either collateral from MagnetBank or compliance with
financial condition covenants. However, at both examinations, examiners reported
concerns related to the bank’s deteriorating asset quality and capital levels, which could

8
 A financial institution that is “adequately capitalized” cannot accept, renew, or roll over brokered deposits
without a waiver from the FDIC.


                                                         8
      have jeopardized the bank’s ability to maintain its funding sources. The April 2008
      examination also noted that the bank did not have a contingency liquidity plan.

      The December 2008 ROE states that liquidity had become critically deficient because of
      the increasing level of non-performing assets and diminishing cash flows. Cease and
      Desist Orders (C&D), issued in September and October 2008, prohibited the bank from
      renewing any brokered deposits. Further, all lines of credit previously available to the
      bank had been cancelled by lenders, and MagnetBank had difficulty in providing
      sufficient funding to cover $15 million in brokered CDs when they matured on
      December 19, 2008. These factors led to the insolvency of the institution and its failure
      on January 30, 2009.

Risk Management Controls

      Management pursued its aggressive growth strategy without implementing risk
      management controls commensurate with the risk in CRE/ADC concentrations.
      Examiners found weaknesses in controls related to (1) credit underwriting and
      administration and (2) compliance with regulatory orders. The lack of sound controls
      adversely affected MagnetBank’s ability to handle the market downturn that subsequently
      materialized.

      Credit Underwriting and Administration. The April 2008 examination identified that
      the BOD failed to formulate and implement a credit risk control environment that would
      engender a conservative credit culture within the bank. The BOD’s emphasis, from the
      creation of the bank to the third quarter of 2007, was rapid growth. This growth was
      accomplished without effective controls over underwriting, loan policies, credit and
      documentation reviews, and participations purchased. Also, additional control was
      warranted regarding the role of the Chairman and Chief Executive Officer (CEO) of the
      institution. By the first quarter of 2008, the bank had significant asset quality problems
      resulting from its continued growth without sufficient attention to underlying controls.
      Specifically, examiners identified the following deficiencies in the bank’s risk
      management controls related to credit underwriting and administration.

      •   Underwriting Deficiencies. The BOD permitted the hiring of loan officers for their
          production abilities rather than sound credit judgment. Examiners concluded that this
          fact helped foster a “broker” mentality among many of the bank’s loan officers,
          meaning that the loan officers focused more on business development than sound
          underwriting. Further, the bank’s compensation agreements with the loan officers
          focused on loan production/development rather than asset quality. The April 2008
          ROE states that there were few controls established to prevent “abuses” in loan
          origination and servicing of the bank’s loan portfolio. Examiners concluded that this
          lack of controls allowed loan officers to understate the risks of the credits that they
          originated and presented to the bank’s Loan Committee. Examiners also concluded
          that the BOD had exposed the bank to greater credit risk by making loan officers
          responsible not only for business development but also for credit review and loan
          collection, thereby undermining a key internal control—the separation of duties. The
          bank did not have the controls or the staffing to verify the quality of credit


                                                   9
    underwriting, the accuracy of grading assigned by loan officers to loans they
    originated, and the effectiveness of collection efforts.

•   Loan Policies and Practices. Although the 2006 and 2007 examinations stated that
    the bank’s risk management processes were generally adequate in relation to
    economic conditions and asset concentrations, the examinations identified several
    improvements needed in the bank’s loan policies. The improvements identified in the
    August 2006 examination included strengthening the bank’s loan policies for limiting
    CRE lending, considering geographic restrictions, and analyzing the effects of a
    downturn in the real estate markets. The August 2007 examination further
    recommended revising the loan policy to limit total exposure to 25 percent or less for
    all loan types for each state with an LPO. However, according to the April 2008
    examination, MagnetBank’s BOD failed to adequately implement and enforce a
    sound loan policy. Specifically, higher-risk lending, such as speculative construction
    loans and residential and commercial acquisition and development loans, was not
    appropriately limited. Also, examiners concluded that the bank’s credit practices
    encouraged real estate lending based on inflated loan-to-value ratios rather than
    lending to borrowers with cash equity in projects. For many loans, the only equity in
    the project was value appreciation based on rapidly escalating real estate markets
    because the BOD did not require that credit staff ensure that borrowers were also
    placing their own capital at risk. The BOD also allowed stated income construction
    loans, particularly for 1-4 family owner occupied residences.

•   Credit and Documentation Review. According to the April 2008 ROE, the BOD
    did not create and appropriately staff an effective loan review function. Additionally,
    we concluded that the bank did not conduct routine independent credit and
    documentation reviews. MagnetBank engaged an independent, limited-scope review
    of the commercial loan portfolio as of May 31, 2007. The review report, dated July 6,
    2007, concluded that the loan portfolio of the bank was properly underwritten and
    monitored. Further, the bank had a rigorous process that provided reasonable
    assurance of timely and accurate credit risk rating. In October 2007, the bank
    conducted an extensive analysis of its portfolio and contracted for an independent
    review of the results. The December 2007 report on a second independent review
    stated that 42 percent of the bank’s loan portfolio had issues, either causing concern
    or already defined as a problem, and that only a small number of these loans had been
    identified as problem loans by the loan officers. The August 2007 ROE - 2 months
    prior to the bank’s review - identified asset classifications of 29 percent of the total
    loan portfolio. The independent reviewers noted that, in many cases, documentation
    such as financial statements was stale and that loans appeared to have little or no
    review prior to the bank’s analysis in October 2007. The bank’s failure to promptly
    and accurately identify problem loans resulted in the ALLL being underfunded by
    $7 million as noted in the April 2008 ROE and by $19.3 million as noted in the
    December 2008 ROE. Table 3 on page 15 contains more details on the bank’s
    adversely classified items and ALLL.

    A September 25, 2007 internal memorandum from the president of the bank to the
    BOD cited examples where loan officers had provided incomplete or erroneous


                                             10
    information about individual credits presented to management and/or the Loan
    Committee for approval. We were able to determine that some actions by the loan
    officers led to losses on some of the cited credits. The bank’s internal
    communications contained some examples of inappropriate loan officer actions at
    various LPOs as shown in the excerpts below.

       Boise LPO – A transaction was presented as a viable project to the Directors’ Loan
       Committee by a loan officer with the concurrence of the LPO manager, because of a
       competing project purported to be fully leased when, in fact, the adjacent retail property
       was only two-thirds leased and the presentation ignored 13 vacant office units.

       Atlanta LPO – A loan officer originated a lease transaction for an individual previously
       jailed for fraudulent leases. Another loan officer misrepresented facts and permitted the
       sale of a controlling interest in a borrowing entity without approval. A third loan officer
       falsified third-party inspections on real estate collateral. A fourth loan officer
       misrepresented the facts on more than one acquisition and development transaction.

       Raleigh LPO – A loan officer falsified third-party inspections.

       Salt Lake City LPO – A loan officer knew a project was not viable, yet he originated the
       transaction and got it approved. The transaction involved likely fraud by the borrowers
       and others, which is being investigated by law enforcement.

•   Participations Purchased. MagnetBank also engaged in a high volume of
    participations purchased ($99 million as of June 2007 and $78 million as of
    December 2008). Most of these participations were with institutions that were not in
    Utah and were primarily originated in once-growing real estate markets, such as
    Atlanta, Georgia. Generally, participations purchased are a quick method of growth
    for a bank because the loan origination and underwriting is conducted by the selling
    bank. However, each loan participation purchaser should conduct adequate due
    diligence procedures to ensure that credit risk is identified and accepted. A bank
    generally sells a participation in a loan as a means of staying within legal lending
    limits and diversifying risk. Many of these participations were with banks that
    subsequently failed in 2008 and 2009 and involved allegations of improper or
    negligent loan underwriting practices by the originating bank, as well as weak due
    diligence by MagnetBank loan officers (see Appendix 2). A MagnetBank
    Participations Purchased schedule, dated June 2007, shows that the bank had
    purchased its largest percentage of loans from FirstCity Bank in Stockbridge, Georgia
    (an Atlanta suburb), which failed in March 2009. These loans, totaling $34 million,
    represented 71 percent of MagnetBank’s capital and 29 percent of MagnetBank’s
    total participations purchased and added to its concentration in that market where
    MagnetBank had an LPO.

    MagnetBank developed a methodology for determining the amount of loans it would
    purchase from another bank. The methodology focused more on assigning a rating to
    a bank than the credit worthiness of individual loans and included evaluating the
    participant bank’s financial condition, using a rating service and then assigning an
    overall credit quality/underwriting grade determined by MagnetBank. Also, we noted


                                               11
    that MagnetBank conducted the credit quality rating for only half of the banks with
    which it did business.

    Once these two factors were evaluated, MagnetBank would determine the level of
    capital exposure the bank would accept. For example, in the first quarter of 2007,
    Integrity Bank, Alpharetta, Georgia (another Atlanta suburb), which failed in 2008,
    had been assigned the highest financial rating category and the highest credit quality
    grade; therefore, MagnetBank could expose up to 90 percent of its capital in
    participations purchased from Integrity Bank. By the second quarter of 2007,
    Integrity Bank had the lowest financial rating category and the second to lowest credit
    quality grade, which, according to MagnetBank’s rating system, indicated that the
    bank should have zero capital exposure from Integrity Bank. However, by that time,
    MagnetBank already had nearly a 10-percent capital exposure with Integrity Bank.
    Similarly, FirstCity Bank, which failed in April 2009, was rated in the highest
    financial category along with the second highest credit quality rating, which indicated
    that the bank could have a 75 percent level of capital exposure. By the second quarter
    of 2007, FirstCity Bank’s financial rating was still rated in the highest category, but
    its credit quality rating was in the second to lowest category, limiting MagnetBank’s
    acceptable capital exposure to 25 percent. However, by the second quarter,
    MagnetBank already had about a 60-percent capital exposure in participations
    purchased from FirstCity Bank.

    The September 25, 2007 internal memorandum from the president of MagnetBank to
    the BOD also stated the following, “Participation deals have been closed and/or
    disbursed differently than approved. For example, a participating bank switched
    collateral without MagnetBank approval at the closing of a transaction. MagnetBank
    had to file suit in order to get out of the transaction. In addition, the correspondent
    business has carried a higher degree of risk than originally assumed.” The president’s
    letter identified some examples of MagnetBank’s deficiencies in risk mitigation
    relative to its correspondent business, as presented below:

       1. Monitoring by a depository institution, which failed in 2009, has been poor and
          occasionally misleading.
       2. A non-bank entity was a poor servicer of loans.
       3. A bank sold MagnetBank two lot loans that went immediately into default.

    As indicated in Appendix 2 of this report, many of the participations that
    MagnetBank purchased ultimately became substandard and resulted in losses to the
    institution.

•   Role of the Bank’s Chairman and CEO. In the April 2008 ROE, examiners
    concluded that the BOD failed to maintain reasonable control over the activities of
    the former Chairman and CEO, who resigned his bank positions in January 2008 and
    failed to heed warnings by several senior officers that loan officers were acting more
    like loan brokers than bank employees in trying to meet growth targets. Examiners
    concluded that “the Board appears to have turned over control to the former CEO by
    giving him an excessive lending limit, thus allowing him to approve large loans with


                                              12
   inadequate controls over the lending function.” In the April 7, 2008 ROE, examiners
   reported that the BOD failed to minimize credit and concentration risk and relied on
   the former Chairman and CEO to control the risk. The examiners noted that, based
   on their discussions with bank management and their review of BOD meeting
   minutes, the BOD had placed unquestioned reliance on information provided by the
   former CEO, who was pushing to expand the loan portfolio in residential acquisition
   and development loans in the Atlanta, Georgia, market, despite warning signs that
   this area was becoming overbuilt. In its July 30, 2008 response to the April 2008
   examination, MagnetBank’s BOD conceded that “the Directors believe they were, at
   times, misled by the bank’s former Chairman and Chief Executive Officer.”

   DSC and MagnetBank management met on April 3, 2008 where bank management
   disclosed the following information about certain loan approvals by the former CEO:

       1. A follow-up review of the Atlanta market loans revealed that in some cases the actual
          project funded was not consistent with the project description in the loan
          documentation.
       2. There appears to be a pattern of loans made in the Atlanta area just under the size
          limit for referral to the bank’s loan committee. The former CEO had granted a
          number of loans just under his individual lending authority, which were experiencing
          distress. The credit underwriting documentation was “misleading.”
       3. The documentation on one loan was “fictitious.”

   In a July 1, 2008 letter to the bank’s outside Counsel, DSC’s Director for the San
   Francisco Regional Office (SFRO) denied an April 9, 2008 request, filed on behalf of
   MagnetBank, seeking FDIC approval to make a payment to the former bank
   Chairman and CEO. The response letter concluded that this would constitute a
   “golden parachute” payment subject to the provisions of section 359.1(f) of the FDIC
   Rules and Regulations, because the FDIC had previously declared the bank in
   “troubled condition.” In support of this denial decision, DSC noted that from the date
   of the individual’s employment until his resignation on January 24, 2008, he had
   served as the bank’s Chairman and CEO, positions which placed him in a high degree
   of fiduciary responsibility to the bank. The denial decision emphasized that during
   the individual’s tenure as Chairman and CEO, the overall condition of the bank
   deteriorated to the point that its viability was in question. The decision concluded
   that the former Chairman and CEO was viewed as being principally responsible for
   the bank’s declining condition.

Compliance with Regulatory Orders. As part of a condition in the FDIC Order
Granting Insurance and Utah Department of Financial Institution Order, MagnetBank
was required to operate within the parameters of its approved business plan.
MagnetBank’s original business plan established a goal of a diversified asset portfolio
that contained a mix of acquisition and development, CRE, consumer real estate, and
commercial and industrial loans. However, bank management did not achieve that goal
due to the bank’s pursuit of rapid growth in CRE/ADC lending. In its April 2007 revised
business plan, the bank again established diversified portfolio goals, including equipment
leasing and Small Business Administration lending, to reduce its CRE/ADC


                                             13
      concentration. The bank was to use additional capital to achieve the portfolio
      diversification. Again, the bank did not achieve a diversified portfolio. According to the
      April 2008 ROE, the BOD acknowledged the existence of the Interagency Guidance on
      Concentrations in Commercial Real Estate in both the BOD and Loan Committee
      minutes but did not establish any meaningful concentration limits based on loan types or
      geography. Had the BOD set such limits, some of the risks caused by the concentrations
      in CRE/ADC lending, including in certain geographic markets, could have been at least
      partially mitigated.

      As part of the approval for MagnetBank’s business plan modification and charter change
      to a commercial bank, and to address the FDIC’s concerns with the bank’s operations,
      MagnetBank signed a CLA on July 25, 2007. Among other provisions, the bank agreed
      to maintain capital levels at 12 percent of risk-based capital and inject an additional
      $50 million in capital. This additional capital would facilitate the bank’s growth and
      diversification and ensure compliance with the minimum capital requirement. According
      to FDIC officials, the bank was not able to achieve these capital levels because financial
      markets had cooled by the time the proposed stock offering was approved by the FDIC,
      and the decline in the bank’s financial condition made ownership in the bank less
      desirable. After 2007 year-end financial data was submitted by the bank, the SFRO sent
      a letter in March 2008, notifying the bank of its violation of the CLA’s provisions for
      obtaining additional capital, maintaining capital ratios, and diversifying the balance sheet.
      The FDIC and MagnetBank management exchanged numerous letters and, according to
      FDIC officials, engaged in many discussions about improving the bank’s capital position.
      However, the bank did not raise the agreed-to capital. The agreement also called for the
      bank to maintain a 10-percent liquidity-to-assets ratio. The bank was initially able to
      achieve this liquidity ratio through brokered deposits and available lines of credit, until
      increasing levels of non-performing assets and diminishing cash flows and capital caused
      brokered deposits to be restricted and the lines of credit to be canceled.

Effects of Growth Strategy Coupled with Weak Risk Management Controls

      MagnetBank’s asset quality deteriorated as loan classifications significantly increased,
      from zero in 2006 to over $103 million and $138 million in April and December 2008,
      respectively. We also noted that some of the participated loans became adversely
      classified and resulted in losses for the bank. At the April 2008 and December 2008
      examinations, adversely classified loans represented 219 percent and 556 percent of
      capital, respectively. Progressive increases in the ALLL were required by examiners in
      April and December 2008 (see Table 3) even though the bank’s loan portfolio was
      declining significantly due to the fact that the bank had essentially ceased the origination
      of new loans across all product lines.




                                                   14
    Table 3: MagnetBank’s Loan Classifications and ALLL (Dollars in $000)
                                   Asset Classifications                   Analysis of ALLL
                                                                                      Increase in
                                                             Total       ALLL           ALLL
                                                           Adversely    Computed       Required
     Examination                                           Classified    by the           by
        Date         Substandard     Doubtful     Loss       Items        Bank        Examiners
     August 2006          0             0          0          0           $2,176          0
     August 2007       $15,575          0          0       $15,575       $5,435           0
     March 2008 *      $55,413         $308      $5,519    $61,240        $9,389          0
      April 2008       $89,804          0       $13,673    $103,477      $14,413       $7,020
    December 2008      $112,868          0      $25,172    $138,040       $8,737       $19,346
    Source: ROEs and UBPRs for MagnetBank.
    * Visitation.

    Suspicious Activity. In the bank’s final months of operation, MagnetBank officials
    reported to the Treasury’s Financial Crimes Enforcement Network over $66 million in
    suspicious activity related to transactions by bank insiders. Those suspicious activities
    ranged from failure to disclose information to incorrect description of properties and
    allegations of mortgage fraud. Such activity may have been made possible by bank
    management’s lack of controls over the credit function.

    Summary. According to the FDIC’s Risk Management Manual of Examination Policies,
    the quality of management is probably the single most important element in the
    successful operation of a bank. The BOD is responsible for formulating sound policies
    and objectives for the bank, effective supervision of its affairs, and promotion of its
    welfare, while the primary responsibility of senior management is implementing the
    BOD’s policies and objectives in the bank’s day-to-day operations. In addition,
    according to the DSC Case Manager Procedures Manual, the safety and soundness risk
    posed by any particular institution is a function of the business plan pursued,
    management’s competency in administering the institution’s affairs, and the quality and
    implementation of risk management programs. In the case of MagnetBank, all three of
    these areas had significant weaknesses that led to the bank’s failure.


ASSESSMENT OF SUPERVISION

    DSC’s Salt Lake City Field Office and the UDFI conducted four joint safety and
    soundness examinations of MagnetBank, a de novo institution, from August 2006
    through December 2008, and the FDIC conducted two visitations, the first of which was
    the initial “new bank” visitation. As a result of problems identified through the FDIC’s
    off-site monitoring, the FDIC conducted a visitation in March 2008 and then accelerated
    the next examination to April 2008, which resulted in C&Ds being issued in September
    and October 2008. The last examination of MagnetBank was in December 2008. Each
    examination report contained comments for improving the safety and soundness of the
    bank.



                                                 15
Historical Snapshot of Supervision

      Examiners expressed concern regarding MagnetBank’s significant concentrated growth
      in its first 15 months of operation. Specifically, the first two examinations of
      MagnetBank in August 2006 and August 2007 identified the concentration risks and
      outlined actions to improve controls over the concentration. As early as the August 2006
      examination, the examiners recommended that the bank monitor and control risk in the
      CRE/ADC loan concentrations, including clarifying the concentrations policy and
      enhancing risk management reporting to limit concentrations exposure. Examiners were
      also concerned about the bank’s failure to formulate and implement an appropriate credit
      risk control environment (see Appendix 3 for examples of examiner comments.)

      The August 2007 ROE and supporting work papers addressed MagnetBank’s compliance
      with the December 12, 2006, Interagency Guidance on Concentrations in Commercial
      Real Estate Lending, Sound Risk Management Practices. According to the guidance, the
      FDIC and the other federal regulatory agencies have acknowledged that a concentration
      in CRE loans, coupled with weak loan underwriting and depressed markets, has
      contributed to significant loan losses. The work papers indicated that the bank had total
      CRE exposures, as of June 30, 2007, at $366 million or 674.88 percent of total capital,
      and of that exposure, construction and land development lending was $333 million or
      614.96 percent of total capital. The examination work papers state that these very high
      ratios, well in excess of the supervisory criteria in the Interagency Guidance, identify
      MagnetBank as having significant CRE concentration risk. Under these circumstances,
      the Interagency Guidance discusses additional focus on risk management practices and
      capital levels commensurate with the concentration risk.

      The August 2007 ROE concluded that bank management understood the concentration
      risk and had implemented appropriate monitoring and controls that mitigated some of that
      risk. Examiners concluded that the bank’s risk management practices were generally
      adequate in relation to economic conditions and asset concentrations. Also, capital was
      well-rated, and the 2007 ROE discussed an additional capital infusion that had not yet
      occurred. However, the examiners stated that the bank’s Concentrations Policy and
      management reporting should be clarified and enhanced, and the Risk Management
      Assessment section of the ROE presented five specific recommendations to accomplish
      that objective.

             Recommendations:
               1. Management should consider revising the lending policy to limit total exposure to
                  25 percent or less for all loan types for each state with a loan production office.
               2. The bank should develop reporting that measures and monitors the primary
                  repayment sources. At a minimum the reports should track the penetration and
                  absorption rates where the bank has exposure (i.e., residential lots or commercial
                  square footage).
               3. Based on the results of the enhanced reporting, Management should consider
                  additional concentration limits based on county or zip code, if warranted.
               4. Management should also consider information gathering services on secondary
                  guarantee sources.



                                                    16
           5. Management reporting should also identify the largest borrowing exposures.

Nevertheless, examiners indicated that the bank had adequate risk mitigation, including:

    •   a geographically diverse portfolio across several states, minimizing the impact of
        local economic downturns;
    •   previous relationships and experience with many borrowers;
    •   conservative underwriting practices; and
    •   well-developed lending policies with strong controls for CRE lending.

Examiners also cited the competence and capabilities of the management team, giving
management a 2 rating. According to the August 2007 ROE:

        . . . risks are consistently and effectively identified, measured, monitored, and controlled.
        The level of depth and experience from both Senior Management and the Board of
        Directors results in strong risk management oversight and conservative and prudent
        banking practices. Management has adapted the [revised] business plan to better
        diversify the loan portfolio and reduce CRE concentration risk. They also converted to a
        commercial bank charter to facilitate raising additional capital for the purpose of funding
        growth and operations.

MagnetBank was well-rated as a result of the August 2007 examination. However, as a
result of off-site monitoring of the bank’s 2007 year-end Call Report financial data, the
FDIC commenced a visitation in March 2008 that focused heavily on the quality of the
bank’s loan portfolio. The visitation identified a precipitous decline in asset quality.
Loans internally classified represented over 200 percent of Tier 1 Capital. Non-
performing assets were approximately 20 percent of total assets. Further, the bank had
not achieved compliance with the CLA between the bank and the FDIC. The visitation’s
results prompted the acceleration of the next annual examination to April 2008.

The April 2008 examination found that adversely classified loans had increased
dramatically due primarily to MagnetBank’s CRE concentrations in the midst of a
precipitously declining real estate market. The ROE states that the excessive volume of
problem assets had negatively impacted earnings and liquidity, capital was critically
deficient due to CRE losses, and the viability of the bank was threatened by poor asset
quality due to a lack of diversification in the loan portfolio. The report indicates that the
bank was in violation of the capital provision in 2005 order granting deposit insurance
and had never complied with the capital requirement in the 2007 CLA. The report states
that the bank’s ALLL was underfunded and that underlying loan grading by loan officers
was suspect because their incentive pay could be negatively affected by poor performing
loans. The report also indicates that the bank did not have a contingency funding plan.
In addition to a composite rating of 5 indicating extremely unsafe and unsound practices
and probable failure, capital, asset quality and earnings also received 5 ratings.
Examiners were critical of bank management for failing to diversify the loan portfolio
and concluded that immediate capital augmentation was required.




                                                 17
The April 2008 ROE, in contrast to the August 2007 examination, stated that the BOD
had not fulfilled its primary fiduciary responsibility to ensure that the institution was
operated in a safe and sound manner. Accordingly, bank management, which includes
the BOD and senior executive management, was considered unsatisfactory. The report
cited a number of issues with MagnetBank’s BOD including:

   •   failure to comply with the Order Granting Federal Deposit Insurance and
       Amended Order Approving Charter;
   •   failure to comply with the CLA;
   •   failure to control concentration risk and implement the business plan to diversify
       the loan portfolio;
   •   failure to maintain control over a dominant CEO and Chairman of the Board;
   •   failure to adhere to the approved business plan; and
   •   failure to document Executive Sessions of the BOD meetings.

In its response to the April 2008 ROE, MagnetBank’s BOD highlighted the marked
differences between the August 2007 examination and the April 2008 examination. In its
response, the BOD noted that as early as the first and second quarters of 2007, members
of the BOD were beginning to independently question certain credit and management
decisions even in light of a glowing August 2007 examination of the bank by the FDIC
and UDFI which appeared to indicate all was well. The response further stated that the
BOD believed that many of the criticisms of the bank and directors contained in the 2008
ROE were being made with the benefit of hindsight. The bank’s BOD concluded that the
FDIC’s use of hindsight was apparent when the April 2008 ROE is compared to the
August 2007 ROE. In the August 2007 ROE, just 8 months prior to the April 2008 ROE,
the BOD’s oversight of the bank was almost uniformly praised by the FDIC and UDFI.

Of particular note in MagnetBank’s response to the 2008 examination, the bank’s BOD
expressed concern that its business plan amendment, filed on October 11, 2006, that
included a primary element to raise an additional $50 million in Tier 1 Capital, was not
approved by the FDIC until July 24, 2007. The bank’s BOD stated that delays in
regulatory approval of the business plan amendment, coupled with changing financial
markets, prevented the bank from raising the capital necessary to support anticipated
growth and portfolio diversification outlined in the business plan. During this time, the
FDIC had announced a moratorium on industrial loan company (ILC) activities,
including industrial banks such as MagnetBank, and extended the moratorium through
January 2008. The moratorium was meant to address the evolution of the ILC industry
and concerns related to the potential risks from mixing banking and commerce. The
imposition of a moratorium on FDIC actions related to (1) applications for deposit
insurance submitted to the FDIC by or on behalf of an ILC and (2) changes in bank
control notices submitted to the FDIC with respect to any ILC. As a result, applications
and notices required FDIC Board of Director’s approval.

The final examination of MagnetBank in December 2008 identified the bank as being
insolvent. The examination focused on the bank’s status in addressing the two
outstanding C&Ds from the UDFI and FDIC. Among the actions required in the


                                            18
      September and October 2008 C&Ds were requirements for the bank to: (1) achieve and
      maintain minimum capital levels, (2) formulate and adopt a comprehensive
      business/strategic plan, (3) reduce and monitor the bank’s loan portfolio and any
      extensions of credit to CRE borrowers, (4) replenish the ALLL, and (5) review and revise
      loan policies and procedures to strengthen the bank’s asset quality and lending functions.
      The bank was in noncompliance with all of these requirements as of the December 2008
      examination. Also, the bank had not been able to attain mandated capital ratios. The
      bank indicated that unless a recapitalization of the bank was realized, a strategic plan was
      meaningless. The bank was closed the following month.


OIG Assessment of FDIC Supervision

      Based on our review, we concluded that the FDIC provided ongoing supervision of
      MagnetBank; identified key concerns for attention by bank management, including the
      problems that led to the bank’s failure; and, together with the UDFI, pursued enforcement
      action as the bank’s financial condition deteriorated in 2008 prior to the bank’s failure.
      The FDIC’s off-site monitoring identified the need for additional oversight, resulting in a
      visitation and subsequent acceleration of the 2008 examination. The April 2008
      examination included a thorough analysis of asset quality and other problems at the bank,
      and the FDIC and UDFI followed up on the resulting two enforcement actions in
      December 2008.

      However, the FDIC could have provided additional supervisory attention and taken
      additional action regarding MagnetBank. In particular, the 2007 examination could have
      more fully considered the risks associated with the rapid growth of a de novo institution
      concentrated in CRE/ADC lending, funded almost exclusively with wholesale funding
      sources. Additional risks included the need for loan portfolio diversification contained in
      the recent business plan change, significant involvement in loan participations in high-
      growth markets and weak loan review activities. As is normal for a de novo institution,
      the bank had losses in its first 2 years in operation (2005 and 2006). Further, the bank
      reported losses of over $7 million for 2007. Therefore, the bank, which started
      operations in 2005, did not have a strong record of financial performance. Examiners
      emphasized heavily the past experience of MagnetBank’s management team rather than
      the growing risk to the institution from its aggressive business strategy and weak risk
      management controls.

      Between the August 2007 and April 2008 examinations, MagnetBank went from well
      rated to the worst composite rating assigned, and numerous critical deficiencies were
      identified in risk management controls by the latter examination. As discussed earlier in
      this report, the contrast between the August 2007 examination and subsequent visitation,
      examination, off-site monitoring, and loan review activities indicate that underlying
      problems existed that warranted supervisory attention. The FDIC should have ensured
      that examiners followed the supervision strategy for the 2007 examination, developed in
      conjunction with the FDIC’s approval of the bank’s revised business plan, that specified a
      60-percent loan sample, which might have identified additional asset quality and risk
      management control problems. Also, delays occurred in processing C&Ds after the April


                                                   19
      2008 examination. Earlier detection of the underlying problems at MagnetBank could
      have led to timelier supervisory actions as well as corrective action by the bank to
      address its problems.

      Supervision Strategy for 2007. As part of the FDIC approval process for the bank’s
      revised business plan, the FDIC’s Washington Office asked the SFRO to develop a bank
      supervision strategy. In April 2007, the SFRO submitted its supervision strategy for
      MagnetBank, which planned for annual examinations, interim 6 month visitations, and
      quarterly offsite monitoring, including an extensive, 60 percent or greater loan portfolio
      sample for the 2007 examination. However, the actual loan sample was less than half of
      the 60 percent targeted amount. The Pre-Examination Planning (PEP) Report contained
      in the examination work papers for the August 2007 joint examination indicated that the
      loan review sample would be between 25 and 30 percent. The UDFI, which prepared the
      PEP Report as the lead agency, had not been informed by the FDIC of the supervisory
      strategy to sample 60 percent of the loan portfolio. Examiners for the August 2007
      examination conducted a loan review of 27 percent of the loan portfolio. Greater
      supervisory concern during the August 2007 examination regarding MagnetBank’s asset
      quality could have led to earlier supervisory action, particularly in light of its de novo
      status and business plan revisions.

      Cease and Desist Orders. As a result of the April 2008 examination, the FDIC met with
      MagnetBank officials on June 25, 2008 to present the examination results. At the
      meeting, the FDIC informed the bank that a C&D would be issued. In July 2008, the
      FDIC’s DSC requested that a C&D be prepared by the Legal Division. The Legal
      Division, in consultation with the UDFI, developed a 25-point C&D to require corrective
      action in response to examination concerns reported in the April 2008 ROE. There was a
      disagreement between the FDIC and the UDFI related to which regulator had the
      authority to rescind the C&D. As a result of the disagreement, two C&Ds were issued,
      the UDFI’s C&D in September 2008 and the FDIC’s C&D in October 2008. Each C&D
      contained the same content, except for the language related to the rescission of the order,
      to: retain qualified management, increase BOD participation, formulate and adopt a
      business/strategic plan, achieve and maintain minimum capital levels, and reduce the size
      of the CRE/ADC loan portfolio. The delay in issuing the C&D resulted in untimely
      enforcement action against the bank and delayed the UDFI in preparing its case for
      closing the institution. A final assessment of the bank’s status in responding to a C&D
      aids the UDFI in obtaining a possessory judgment to close a bank in the state of Utah.

Actions Taken Subsequent to MagnetBank’s Failure

      DSC has established a corporate performance objective that formal corrective action be
      presented to an institution within 60 days after an examination completion date.
      Additionally, DSC has begun issuing an examination exit letter advising 4 or 5
      composite-rated institutions that they must notify the FDIC prior to any material change
      in their balance sheet, including large brokered deposit acquisitions. The SFRO has also
      taken steps to strengthen off-site monitoring of financial data by enhancing current off-
      site monitoring with reports that identify and rank institutions with characteristics that



                                                  20
    include concentrations and high levels of wholesale funding. Also, DSC has developed a
    De Novo Performance Report, which compares a de novo bank’s approved business plan
    to quarterly Call Report data. Deviations are identified for follow-up by the Case
    Managers. This report is a useful off-site monitoring tool that will help DSC identify
    future deviations by de novo banks from their approved business plans as well as
    concentration risks.

IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
    implements PCA requirements by establishing a framework for taking prompt corrective
    action against insured nonmember banks that are not adequately capitalized. For
    MagnetBank, the FDIC followed PCA guidance. The March 2008 FDIC visitation found
    significant deterioration in asset quality, resulting in increased losses and depletion of
    capital. These results were further developed in the April 2008 examination. On
    June 25, 2008, the FDIC notified MagnetBank of its PCA status, “Undercapitalized,” on
    the transmittal letter that accompanied the April 2008 ROE. The bank was required to
    submit a capital restoration plan and restrict asset growth. The bank was unable to raise
    additional capital, and on January 6, 2009, the FDIC notified MagnetBank of its
    “Critically Undercapitalized” status, under PCA provisions, and the bank subsequently
    failed on January 30, 2009.

CORPORATION COMMENTS AND OIG EVALUATION

    On August 20, 2009 the Director, Division of Supervision and Consumer Protection
    (DSC), provided a written response to the draft report. DSC’s response is provided in its
    entirety in Appendix 5 of this report. In its response, DSC stated that MagnetBank failed
    due to management’s aggressive pursuit of ADC loans concentrated in high-growth
    markets funded with higher-cost wholesale deposits. DSC also stated that this profile,
    coupled with weak management controls, left MagnetBank unprepared to deal with
    declining markets.

    In addition, the Director stated that in 2007, DSC had implemented a supervisory strategy
    of planned annual examinations, interim 6-month visitations, and quarterly off-site
    monitoring. However, DSC agreed that, in 2007, a higher loan sample may have
    uncovered additional problems that could have led to earlier supervisory action. DSC
    also stated that the examiner loan review did identify several significant problem loans
    that led to actions by MagnetBank management. A revised business plan and financial
    model had been adopted by MagnetBank when the August 2007 examination
    commenced, leaving limited time to perform under the revised plan. Additionally, DSC
    noted that MagnetBank management was not able to raise the $50 million in capital
    related to implementation of the new plan and was not able to achieve goals set for
    diversification of the loan portfolio and funding sources due to rapid deterioration in asset
    quality and in the institution’s markets.




                                                 21
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, the Inspector General of the appropriate federal banking
      agency shall prepare a report to that agency reviewing the agency’s supervision of the
      institution. The FDI Act requires that the report be completed within 6 months after it
      becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from February 24, 2009 to July 10, 2009 in accordance with
      generally accepted government auditing standards. However, due to the limited scope
      and objectives established for material loss reviews, which are generally applied to just
      one financial institution, it may not have been feasible to address certain aspects of the
      standards, as described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of MagnetBank’s operations from
      September 29, 2005 until its failure on January 30, 2009. Our review also entailed an
      evaluation of the regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and the UDFI
                 examiners from 2006 to 2008.

             •   Reviewed the following:
                   • Bank data and correspondence maintained at DSC’s SFRO and Salt Lake
                     City, Utah, Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure. We also reviewed bank records
                       maintained by DRR in Dallas, Texas, for information that would provide
                       insight into the bank’s failure, as well as various annual reports and
                       accompanying financial statements.

                   •   Pertinent DSC policies and procedures.




                                                     22
                                                                                     APPENDIX 1


           •   Interviewed the following FDIC officials:
                  • DSC management in Washington, D.C., and the SFRO, California.


                 •   DRR officials at the Dallas Regional Office.

                 •   FDIC examiners from the DSC Salt Lake City, Utah, Field Office who
                     participated in examinations or reviews of examinations of MagnetBank.

           •   Met with current and former officials of the UDFI in their Salt Lake City, Utah,
               office and at an FDIC office in Dallas, Texas, to discuss the historical perspective
               of the institution, its examinations, state banking laws, and other activities
               regarding the state's supervision of the bank.

           •   Researched various banking laws and regulations, including laws related to ILCs
               and industrial banks.

      We performed the audit field work at DRR offices in Dallas, Texas, and DSC offices in
      San Francisco, California, and Salt Lake City, Utah.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of
      MagnetBank’s management controls pertaining to its operations as discussed in the
      finding section of this report.

      For purposes of the audit, we did not rely on computer-processed data to support our
      significant findings and conclusions. Our review centered on interviews, ROEs and
      correspondence, and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.
      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of evaluating audit evidence.




                                                    23
                                                  APPENDIX 2
     EXAMPLES OF PARTICIPATIONS PURCHASED BY MAGNETBANK




                                Participation
 Loan                                                     ROE Date Noting         ROE Adverse
             Loan                Purchased
 No./                                                        Adverse          Classification Amount
            Amount                  and
 Date                                                      Classification
                                  Amount
Loan A    $1,601,000     100% Participation Purchased     April 7, 2008      Substandard = $1,000,000
6-14-06                  of $1,601,000 from a bank                           Loss = $601,000
                         closed by regulators in 2009
                                                          March 3, 2008      Substandard = $1,151,000
                                                                             Loss = $450,000
Loan B    $6,000,000     Participation Purchased of       April 7, 2008      Substandard = $3,500,000
9-25-06                  $6,000,000 from a bank closed                       Loss = $2,500,000
                         by regulators in 2008
Loan C    $1,599,000     100% Participation Purchased     December 8, 2008   Substandard = $1,599,000
4-6-06    with $57,000   of $1,599,000 from a bank
          in Accrued     closed by regulators in 2009     March 3, 2008      Substandard = $1,599,000 +
          Interest                                                           $57,000 Accrued Interest
Loan D    $3,942,000     100% Participation Purchased     December 8, 2008   ORE amount = $3,637,000
9-11-06   Owned Real     of $3,942,000 from a bank                           Substandard = $3,500,000
          Estate (ORE)   closed by regulators in 2009                        Loss = $137,000

                                                          March 3, 2008      ORE amount = $2,878,000
                                                                             Substandard = $2,472,000
                                                                             Loss = $406,000
Loan E    $2,500,000     Participation Purchased of       December 8, 2008   Loss = $2,500,000
8-14-07                  $2,500,000 from a bank closed
                         by regulators in 2008
Loan F    $4,477,000     80% Participation Purchased of   December 8, 2008   Substandard = $2,316,000
3-23-06                  $6,000,000 from a bank closed                       Loss = $2,161,000
                         by regulators in 2009
                                                          April 7, 2008      Special Mention = $4,477,000
                                                                             .
Loan G    $1,890,016     Participation Purchased of       December 8, 2008   ORE amount = $1,425,000
Approx.                  $1,890,016 from a bank closed                       Substandard = $1,425,000
3-2-07                   by regulators in 2009

Source: ROEs and DRR records on MagnetBank.




                                                  24
                                                          APPENDIX 3
                 EXAMPLES OF MAGNETBANK EXAMINER COMMENTS AND
                   RECOMMENDATIONS RELATED TO ASSET QUALITY


                                                                                        Examination Dates
                                                                               Aug     Aug    Mar     Apr      Dec
                          Examiner Comments
                                                                               2006    2007   2008   2008      2008
                                                                                              Visit
Overall conclusion on MagnetBank’s asset quality
    •   Satisfactory                                                               9       9
    •   Rapid deterioration in asset quality threatens bank’s viability or                         9       9       9
        critically deficient
CRE and ADC loan concentrations
    •   Concentration developing or already developed                              9       9       9       9       9
    •   Risk mitigated by conservative underwriting practices supported by         9       9
        a robust credit policy
    •   Impact of a declining economic environment, particularly in the                    9       9       9       9
        Southeast U.S. real estate market
Adverse classifications
    •   No adverse classifications                                             9
    •   Progressive increases in adverse classifications noted                         9       9       9       9
Assessment of risk management practices
    •   Underwriting and credit administration practices are adequate              9       9
    •   Failure to formulate and implement a credit risk control                                           9       9
        environment, which includes appropriate risk selection, credit risk
        limits by product and geography, effective internal controls, and
        appropriate supervision of credit risk management
    •   Inadequate loan document review function                                           9               9
    •   Adequate loan file documentation                                           9       9
    •   ALLL not adequately funded                                                                 9       9       9
    •   ALLL policy establishes a concise and appropriate reserve                  9       9       9
        methodology based on internally classified loans and estimated
        credit losses over the next 13 months
    •   Internal watch list did not adequately reflect all potential problem                               9
        loans - loan officers assigned loan grades to their own individual
        credits without periodic review of those assignments
    •   The portfolio composition primarily consists of real estate                9       9       9
        construction and land development loans, which deviates from the
        original and revised business plan
    •   Credit culture emphasizes rapid growth                                                             9
Examiner recommendations
    •   Monitor and control risk in the CRE/ADC loan concentrations,               9       9               9
        including clarifying the concentrations policy and enhancing risk
        management reporting to limit concentrations exposure, and
        eliminating high-risk CRE/ADC lending programs in states with
        poorly performing real estate markets
    •   Adequately fund the ALLL allowance                                                                 9
    •   Create an independent loan review function to ensure loan grading                                  9
        policies are followed, underwriting criteria and documentation is
        executed properly, loan loss reserve policy is observed, and reserve
        levels are adequate
      Source: ROEs for MagnetBank.




                                                           25
                                                                                   APPENDIX 4
                                GLOSSARY OF TERMS

      Term                                                  Definition
Adversely           Assets subject to criticism and/or comment in an examination report. Adversely
Classified Assets   classified assets are allocated on the basis of risk (lowest to highest) into three
                    categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is adequate to
Loan and Lease      absorb the estimated loan losses associated with the loan and lease portfolio
Losses (ALLL)       (including all binding commitments to lend). To the extent not provided for in a
                    separate liability account, the ALLL should also be sufficient to absorb estimated
                    loan losses associated with off-balance sheet loan instruments such as standby letters
                    of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution regulator to a
Order (C&D)         bank or affiliated party to stop an unsafe or unsound practice or a violation of laws
                    and regulations. A C&D may be terminated when the bank’s condition has
                    significantly improved and the action is no longer needed or the bank has materially
                    complied with its terms.

Concentration       A concentration is a significantly large volume of economically related assets that an
                    institution has advanced or committed to a certain industry, person, entity, or
                    affiliated group. These assets may, in the aggregate, present a substantial risk to the
                    safety and soundness of the institution.

Golden Parachute    A “golden parachute payment” is generally considered to be any payment to an
                    institution-affiliated party (IAP) that is contingent on the termination of that person’s
                    employment and is received when the insured depository institution making the
                    payment is troubled or, if the payment is being made by an affiliated holding
                    company, either the holding company itself or the insured depository institution
                    employing the IAP is troubled.

Prompt              The purpose of PCA is to resolve the problems of insured depository institutions at
Corrective Action   the least possible long-term cost to the DIF. Part 325, subpart B, of the FDIC Rules
(PCA)               and Regulations, 12 Code of Federal Regulations, section 325.101, et. seq.,
                    implements section 38, Prompt Corrective Action, of the FDI Act, 12 United States
                    Code section 1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately capitalized.
                    The following terms are used to describe capital adequacy: (1) Well Capitalized,
                    (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized,
                    and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within any
                    of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and ratios
Performance         that includes extensive comparisons to peer group performance. The report is
Report (UBPR)       produced by the Federal Financial Institutions Examination Council for the use of
                    banking supervisors, bankers, and the general public and is produced quarterly from
                    Call Report data submitted by banks.



                                               26
                                                                                                       APPENDIX 5
                            CORPORATION COMMENTS




FDICI
Federal Depoit Iniurance Corporation
550 17th Sireet NW, Washington, DC 2029-99                        Division of Supervision and Consumer Protecion




                                                                   August 20. 2009


MEMORANDUM TO:                      Russell A. Rau
                                    Assistat InspecioKeneral for Audits

FROM:                               Sandra L. l1mpsoil
                                    Director

SUBJECT:                            Draft Audit Report Entitled, Material Loss Review of
                                    MagnetBank, Salt Lake City, Uta (Assignent No, 2009.021)


Pursuat to Section 38(k) of       the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corpration's Offce ofInspector General (OIG) conducted a Material Loss Review of
MagnetBank, Salt Lake City, Uta, which failed on Januar 30, 2009. The Division of
Supervision and Consumer Protection (DSC) received the OIG's Draft Audit Report on August
6,2009, providing information on the cause offailure and an assessment of the FDIC's
supervision of MagnetBan.

We agree with the OIG's findings that MagnetBan failed primarly due to maagement's
aggressive pursuit of Acquisition, Development, and Construction (ADC) loans concentrated in
high-growth markets funded with higher-cost wholesale deposits. This profie coupled with
weak magement controls left MagnetBank unprepared to deal with declining markets.

In 2007, DSC implemented a supervisory strategy of        planed anual examinations, interim six-
month visitations, and quaerly off-site monitoring. However, the Draf Audit Report notes, and
DSC agrees, that a higher loan review penetration may have uncovered additiona problems that
could have led to ealier supervisory action. The examiner loan review did identifY several
significant problem loans which led to actions by MagnetBank management. A revised business
plan and financial model had been adopted by MagnetBank at the time the August 2007
examination commenced, leaving limited time to perform under the revised plan.

The Draft Audit Report further finds that the FDIC and the Uta Deparment ofFinancial
Institutions conducted on-going supervision through risk management examinations and off-site
monitoring. The OIG findings note that examiners identified key concerns for attention by
MagnetBan's management and pursued enforcement action as MagnetBan's financial
condition deteriorated in 2008. As noted, MagnetBan's loan portfolio was reduced by more
than 40 percent during the first nine months of2008; however, management was not able to raise
the $50 million in capital related to implementation of      the new plan. Additionally, MagnetBan
was unable to achieve the goals set forth for diversification of    the loan portfolio and funding
sources due to rapid deterioration in asset quality and in the institution's markets.

Tha you for the opportity to review and comment on the Draft Audit Report.




                                                     27
                                                                     APPENDIX 6
                      ACRONYMS IN THE REPORT


Acronym   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BOD       Board of Directors
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity,
          and Sensitivity to Market Risk
CD        Certificate of Deposit
CEO       Chief Executive Officer
CFO       Chief Financial Officer
CLA       Capital and Liquidity Agreement
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
IAP       Institution-Affiliated Party
ILC       Industrial Loan Company
LPO       Loan Production Office
OIG       Office of Inspector General
ORE       Owned Real Estate
PCA       Prompt Corrective Action
ROE       Report of Examination
SFRO      San Francisco Regional Office
UBPR      Uniform Bank Performance Report
UDFI      Utah Department of Financial Institutions
UFIRS     Uniform Financial Institution Rating System




                                      28
